                                Office of Inspector General
                               Corporation for National and
                                        Community Service




                   AUDIT OF
   CORPORATION FOR NATIONAL AND COMMUNITY
          SERVICE GRANTS AWARDED TO
  U.S. COMMITTEE FOR REFUGEES AND IMMIGRANTS

                OIG REPORT NUMBER 11-05




                 1201 New York Ave., NW
                         Sutie 830
                  Washington, DC 20525
                      (202) 606-9390




This report was issued to Corporation management on November 24, 2010. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than May
23, 2011, and complete its corrective actions by November 23, 2011. Consequently, the
reported findings do not necessarily represent the final resolution of the issues presented.
                                NATIOONAL&
                                COMMUNITY
                                SERVICEtt1'C
                       OFFICE OF INSPECTOR GENERAL

                                  November 24,2010


TO:           Margaret Rosenberry, Director, Office of Grants Management

FROM:         Stuart Axenfeld, Assistant Inspector General for Audit       ~     MJ/
SUBJECT:      OIG Report 11-05, Audit of Corporation for National and Community
              Service AmeriCorps Grants Awarded to Us. Committee for Refugees and
              Immigrants (USCRJ).

Attached is the final report for the above-noted OIG audit of AmeriCorps grants awarded
to useR!. This audit was performed by OIG staff in accordance with generally accepted
government auditing standards.

The purpose of this audit was to determine whether USCRI had adequate procedures and
controls that were in compliance with Federal laws, regulations and award conditions.

Under the Corporation's audit resolution policy, a final management decision on the
findings in this report is due by May 23, 2011. Notice of final action is due by November
23, 2011. If you have any questions pertaining to this report, please contact me at (202)
606-9360, or Richard Samson, Audit Manager, at (202) 606-9380.


Enclosure

cc:    Lavinia Limon, USCRI CEO
       Lee Williams, USCR! CFO
       Kristin McSwain, Chief of Program Operations
       John Gomperts, Director, AmeriCorps State and National
       William Anderson, Chief Financial Officer
       Rocco Gaudio, Deputy Chief Financial Officer, Grants and FFMC
       Claire Moreno, Audit Liaison, Office of Grants Management
       Bridgette Roy, Administrative Assistant


                                                                       /




             1201 New York Avenue, NW   * Suite NW  *Washington, DC 20525
                202-606-9390  *Hotline: 800-452-8210 *www.cncsoig.gov

                  Senior Corps * AmeriCorps * Learn and Serve America
                                    OFFICE OF INSPECTOR GENERAL
                                               AUDIT OF
                           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                         GRANTS AWARDED TO
                             U.S. COMMITTEE FOR REFUGEES AND IMMIGRANTS


                                                           CONTENTS

Section                                                                                                                          Page

Executive Summary ......................................................................................................          1

Summary of Results ......................................................................................................         1

Summary of Questioned Costs.......................................................................................                1

Results of Audit .............................................................................................................    1

Audit Objective, Scope, and Methodology ......................................................................                    9

Background....................................................................................................................    9

Exit Conference.............................................................................................................. 10



Appendices

A: U.S. Committee for Refugees and Immigrants’ Response to Audit Report
B: Corporation’s Response to Audit Report
                                           EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an audit of AmeriCorps grants awarded to U.S. Committee for
Refugees and Immigrants (USCRI). The purpose of the audit was to determine whether
USCRI was in compliance with applicable laws, regulations, and terms and conditions of the
grants.

SUMMARY OF RESULTS

We found the following areas in which AmeriCorps program requirements were not met by
USCRI:

   1. Member service hours did not meet the minimum amount required to receive an
      education award;

   2. Member timesheets were not signed by the member and/or site supervisor;

   3. Proper citizenship documentation was not maintained in member files; and

   4. Compelling personal circumstances were not properly documented in member files.

SUMMARY OF QUESTIONED COSTS

                              Questioned               Questioned Ed                 Questioned
          Finding
                                Costs                     Awards                   Accrued Interest
              1                      -                   $179,550                      $8,054
              2                      -                       9,450                           -
              3                $35,043*                      9,450                           -
              4                      -                       2,982                           -
            Total              $35,043*                  $201,432                      $8,054
       *$35,043 (Federal Share) and $6,184 (Grantee Share) equal $41,227 (Amount questioned in Finding No. 3)


RESULTS OF AUDIT

1. AmeriCorps member service hours did not meet the minimum amount required to
   receive an education award.

During the audit period, we reviewed 99 AmeriCorps member files in program years 2006-
2007, 2005-2006, and 2004-2005. A review of timesheets showed that 38 of the 99
AmeriCorps members did not have the required amount of service hours to receive an
education award. These 38 members were full-time, and therefore, were required to serve
at least 1,700 hours to receive an award. Actual hours per timesheets did not support the
required 1,700 service hours for educational awards earned by 38 full-time members, as
follows:

 Program            Member               eSPAN               Timesheet             Education             Accrued
   Year             Number               Hours                 Hours                Award                Interest
2006-2007             1                  1,714                 1,498               $ 4,725               $ 752
2006-2007             2                  1,717                 1,578                  4,725                    -


                                                      1
 Program        Member           eSPAN          Timesheet        Education    Accrued
   Year         Number           Hours            Hours           Award       Interest
2006-2007          3             1,707            1,622             4,725         274
2006-2007          4             1,740            1,662             4,725       2,309
2006-2007          5             1,740            1,221             4,725       1,551
2006-2007          6             1,722            1,546             4,725           -
2006-2007          7             1,715            1,668             4,725           -
2006-2007          8             1,702            1,567             4,725         188
2006-2007          9             1,753            1,545             4,725           -
2006-2007         10             1,707            1,635             4,725           -
2006-2007         12             1,700            1,613             4,725           -
2006-2007         15             1,752            1,600             4,725           -
2006-2007         17             1,896            1,280             4,725           -
2006-2007         19             1,706            1,680             4,725           -
2006-2007         20             1,713            1,667             4,725           -
2006-2007         22             1,705            1,685             4,725         198
2006-2007         23             1,700            1,522             4,725           -
2006-2007         24             1,700            1,556             4,725         794
2006-2007         25             1,700            1,577             4,725           -
2006-2007         26             1,705            1,490             4,725         866
2006-2007         27             1,701            1,688             4,725           -
2006-2007         29             1,708            1,640             4,725           -
2006-2007         31             1,701              437             4,725           -
2006-2007         32             1,709              645             4,725           -
2006-2007         33             1,701            1,071             4,725           -
2005-2006         35             1,710            1,679             4,725           -
2005-2006         55             1,702            1,694             4,725           -
2005-2006         67             1,703            1,667             4,725         205
2004-2005         69             1,700            1,618             4,725         391
2004-2005         71             1,704            1,688             4,725         325
2004-2005         72             1,758            1,684             4,725         201
2004-2005         75             1,706            1,697             4,725           -
2004-2005         77             1,700            1,694             4,725           -
2004-2005         79             1,701            1,621             4,725           -
2004-2005         84             1,733            1,698             4,725           -
2004-2005         87             1,714            1,637             4,725           -
2004-2005         94             1,711            1,639             4,725           -
2004-2005         96             1,757            1,656             4,725           -
  Total                                                          $179,550     $8,054

Criteria

45 CFR § 2527.10, What is the amount of an AmeriCorps education award?, states:

       (a) Full-time term of service. The education award for a full-time
       term of service of at least 1,700 hours is $4,725.
       (b) Part-time term of service. The education award for a part-time
       term of service of at least 900 hours is $2,362.50.
       (c) Reduced part-time term of service. The education award for a
       reduced part-time term of service of fewer than 900 hours is--


                                           2
         (1) An amount equal to the product of--
             (i) The number of hours of service required to complete the reduced
             part-time term of service divided by 900; and
             (ii) 2,362.50; or
         (2) An amount as determined otherwise by the Corporation.

45 CFR § 2529.10 (a) Eligibility, states: “The Corporation will pay interest that accrues on
an individual’s qualified student loan, subject to the limitation on amount in paragraph (b) of
this section, if (1) The individual successfully completes a term of service in an approved
AmeriCorps position.”

2004 AmeriCorps Provisions, Section B. AmeriCorps Special Provisions, Part 12. Post-
Service Education Awards, states:

       In order for a member to receive a post-service education award from the
       National Service Trust, the Grantee must certify to the National Service
       Trust that the member is eligible to receive the education benefit. The
       Grantee must notify the National Service Trust on a form provided by the
       Corporation (electronic submission via WBRS suffices) when it enrolls a
       member for a term of service, when the member completes the term, and
       whenever there is a change in the member's status during the term (e.g.,
       release for compelling circumstances or suspension). A member may
       receive a post-service education award only for the first two terms of
       service. For example, one full-time and on half-time term of service count
       as two terms. If a member is released for reasons other than misconduct
       prior to completing 15% of a term of service, that term does not count as
       one of the two terms for which an education award may be provided. No
       Corporation or other federal funds may be used to provide member support
       costs for a third or subsequent term of service in an AmeriCorps State or
       National Program.

2004 AmeriCorps Provisions, Section B. AmeriCorps Special Provisions, Part 22.c. Time
and Attendance Records, states:

       AmeriCorps Members. The Grantee must keep time and attendance
       records on all AmeriCorps members in order to document their eligibility for
       in-service and post-service benefits. Time and attendance records must be
       signed and dated both by the member and by an individual with oversight
       responsibilities for the member.

USCRI stated that it did not verify members’ hours by reviewing timesheets, but instead
reviewed the time and attendance database on the Corporation’s Web-Based Reporting
System (WBRS). Members would input their hours into WBRS, which subsequently, were
approved by their on-site supervisor.

We question the 38 members’ education awards of $179,550. We also question the 12
members’ accrued interest awards totaling $8,054. The total amount questioned is
$187,604.




                                            3
Recommendation

1. We recommend that the Corporation recover the questioned education awards and
   accrued interest of $187,604.

USCRI’s Response

USCRI did not concur with the recommendation to recover the questioned education awards
and accrued interest of $187,604. USCRI subsequently identified and provided, to the
Corporation, additional timesheets for 10 of the 38 members questioned. USCRI is currently
working to identify timesheets for the remaining 28 members.

Corporation’s Response

The Corporation will work with the grantee to develop corrective actions and will also
respond to findings and recommendations in its management decision.

OIG Comments

USCRI submitted additional timesheets to the Corporation. The subsequent timesheets
were not reviewed by the OIG. The Corporation should work with USCRI and the OIG to
resolve any issues during the audit resolution process.

2. Member timesheets were not signed by the member and/or site supervisor.

Timesheets were reviewed for 99 AmeriCorps members during program years 2006-2007,
2005-2006, and 2004-2005. Timesheets were not signed by the AmeriCorps member
and/or the site supervisor for 13 of the 99 AmeriCorps member timesheets we reviewed, as
follows:

                                                  Unsigned               Unsigned
         Program              Member                                                   Education
                                                  Timesheet              Timesheet
           Year               Number                                                    Award
                                                  (Member)              (Supervisor)
        2006-2007                 15*                8                       8               -
        2006-2007                 16**               -                       1               -
        2006-2007                 17*                1                       1               -
        2006-2007                 19*                -                       1               -
        2006-2007                 29*                -                       1               -
        2006-2007                 32*                1                       -               -
        2006-2007                 33*                -                       1               -
        2004-2005                 72*                -                       1               -
        2004-2005                 76                 -                       1          $4,725
        2004-2005                 83**               -                       1               -
        2004-2005                 84*                2                       3               -
        2004-2005                 85                 1                       -           4,725
        2004-2005                 96*                -                       1               -
          Total                                                                         $9,450
     *Member’s education award was questioned in Finding No. 1 above.
     **Member met required minimum service hours.




                                                      4
Criteria

2004 AmeriCorps Provisions, Section B. AmeriCorps Special Provisions, Part 22.c. Time
and Attendance Records, states:

       AmeriCorps Members. The Grantee must keep time and attendance
       records on all AmeriCorps members in order to document their eligibility for
       in-service and post-service benefits. Time and attendance records must be
       signed and dated both by the member and by an individual with oversight
       responsibilities for the member.

Without signed timesheets by the AmeriCorps member and/or site supervisor, the potential
exists for inaccurate timesheets to be recorded that may result in improper payments of
education awards. We did not question nine of 13 members’ education awards because
those awards were previously questioned in Finding No. 1 above. However, we will
question any of the nine AmeriCorps members' education awards in this finding if these
AmeriCorps members' education awards are subsequently allowed under Finding No. 1.
Also, we did not question 2 of the 13 members’ education awards because they still met the
required minimum service hours, even after reducing the hours from the unsigned
timesheets. We question the remaining two members’ education awards totaling $9,450.
These AmeriCorps members were short of the requirement by 23 and 6 service hours,
respectively.

Recommendation

2. We recommend that the Corporation recover the questioned education awards of
   $9,450.

USCRI’s Response

USCRI does not concur with the recommendation to recover the questioned education
awards of $9,450. USCRI stated that, although timesheets were not signed, the service
hours were entered on the paper timesheets and submitted for payment. Also, member
hours were entered into WBRS by the AmeriCorps members and approved by the on-site
manager.

Corporation’s Response

The Corporation will work with the grantee to develop corrective actions and will also
respond to findings and recommendations in its management decision.

OIG Comments

We recommend that the Corporation recover the questioned costs.

3. Proper citizenship documentation was not maintained in member files.

Member files were reviewed for 99 AmeriCorps members during program years 2006-2007,
2005-2006, and 2004-2005. Proper citizenship documentation was not maintained for four
of the 99 members reviewed, as follows:



                                           5
                                            Living Allowance &
     Program              Member                                  Education    Accrued
                                              Related Fringe
       Year               Number                                   Award       Interest
                                                 Benefits
     2004-2005                86                   11,995           4,725
     2004-2005                87*                  11,057               -           -
     2004-2005                95                    6,441           4,725
     2004-2005                96*                  11,734               -           -
       Total                                     $41,227**         $9,450           -
     *Member’s education award was questioned in Finding No. 1.
     **$35,043 (Federal Share) and $6,184 (Grantee Share)


Criteria

45 CFR § 2522.200, Section a. Eligibility, Part 3, states: "An AmeriCorps participant must
be a citizen, national, or lawful permanent resident alien of the United States.”

45 CFR § 2522.200, Section c. Primary documentation of status as a U.S. citizen or
national, states:

       The following are acceptable forms of certifying status as a U.S. citizen or
       national:

            1. A birth certificate showing that the individual was born in one of the
               50 states, the District of Columbia, Puerto Rico, Guam, the U.S.
               Virgin Islands, American Samoa, or the Northern Mariana Islands;

            2. A United States passport;

            3. A report of birth abroad of a U.S. Citizen (FS-240) issued by the
               State Department;

            4. A certificate of birth-foreign service (FS-545) issued by the State
               Department;

            5. A certificate of report of birth (DS-1350) issued by the State
               Department;

            6. A certificate of naturalization (Form N-550 or N-570) issued by the
               Immigration and Naturalization Service.

            7. A certificate of citizenship (Form N-560 or N-561) issued by the
               Immigration and Naturalization Service.


45 CFR § 2522.200, Section d. Primary documentation of status as a lawful permanent
resident alien of the United States, states:

       1. Permanent Resident Card, INS Form I-551;

       2. Alien Registration Receipt Card, INS Form I-551;



                                                      6
       3. A passport indicating that the INS has approved it as temporary
          evidence of lawful admission for permanent residence; or

       4. A Departure Record (INS Form I-94) indicating that the INS has
          approved it as temporary evidence of lawful admission for permanent
          residence.

45 CFR § 2522.200, Section e. Secondary documentation of citizenship or immigration
status, states: "If primary documentation is not available, the program must obtain written
approval from the Corporation that other documentation is sufficient to demonstrate the
individual’s status as a U.S. citizen, U.S. national, or lawful permanent resident alien.”

Participants lacking proper citizenship documentation are ineligible to receive living
allowances and education awards. We question all four AmeriCorps members' living
allowance and related fringe benefits of $41,227 ($35,043—Federal Share and $6,184—
Grantee Share). We also question two AmeriCorps members' education awards of $4,725
each, which totals $9,450. The other two AmeriCorps members' education awards were not
questioned in this finding because their education awards were previously questioned in
Finding No. 1. However, we will question the two AmeriCorps members' education awards
in this finding if these awards are subsequently allowed under Finding No. 1.

Recommendation

3. We recommend that the Corporation recover the questioned living allowance and related
   fringe benefits of $35,043 and education awards of $9,450.

USCRI’s Response

USCRI does not concur with the audit recommendation to recover questioned costs. USCRI
subsequently provided proper citizenship documentation for 26 of the 31 AmeriCorps
members whose status was originally questioned in the draft report.              (Citizenship
documentation was provided for one additional member after USCRI’s response to the draft
report, bringing the total to 27.) USCRI will continue to attempt to obtain proper citizenship
documentation for the remaining five members.

Corporation’s Response

The Corporation will work with the grantee to develop corrective actions and will also
respond to findings and recommendations in its management decision.

OIG Comments

This report has been revised since being issued in its draft form. USCRI subsequently
provided citizenship documentation for 27 of the 31 AmeriCorps members originally
questioned. We reviewed this documentation and determined it was in compliance with the
grant provisions. We recommend that the Corporation recover the remaining questioned
costs.




                                            7
4. Compelling personal circumstances were not properly documented in member
   files.

Two of the 99 AmeriCorps members reviewed during program years 2006-2007, 2005-2006,
and 2004-2005, received partial education awards. USCRI exited both members from the
program due to compelling personal circumstances and awarded partial awards to the
members. However, for the one member who exited early during program year 2005-2006,
USCRI did not document the for compelling personal circumstances, as required

Criteria

45 § CFR 2522.230, Under what circumstances may AmeriCorps participants be released
from completing a term of service, and what are the consequences?, states:

       An AmeriCorps program may release a participant from completing a term
       of service for compelling personal circumstances as demonstrated by the
       participant, or for cause.

       a. Release for compelling personal circumstances.

           1. An AmeriCorps program may release a participant upon a
              determination by the program, consistent with the criteria listed in
              paragraphs (a)(5) through (a)(6) of this section, that the participant
              is unable to complete the term of service because of compelling
              personal circumstances.

           2. A participant who is released for compelling personal circumstances
              and who completes at least 15 percent of the required term of
              service is eligible for a pro-rated education award.

           3. The participant has the primary responsibility for demonstrating that
              compelling personal circumstances prevent the participant from
              completing the term of service.

           4. The program must document the basis for any determination that
              compelling personal circumstances prevent a participant from
              completing a term of service.

We question the AmeriCorps member’s partial education award of $2,982.

Recommendation

4. We recommend that the Corporation recover the questioned education award of $2,982.

USCRI’s Response

USCRI does not concur with the audit recommendation to recover the questioned education
award of $2,982. USCRI stated that compelling personal circumstances were not fully
documented because of the confidential nature of the member’s situation.




                                            8
  Corporation’s Response

  The Corporation will work with the grantee to develop corrective actions and will also
  respond to findings and recommendations in its management decision.

  OIG Comments

  We recommend that the Corporation recover the questioned costs.

  AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

  The objectives of the audit were to determine whether USCRI was in compliance with terms
  of the grant and applicable laws and regulations related to member eligibility and terms of
  service.

  The scope of this audit included the AmeriCorps Grant for program years 2004-2005, 2005-
  2006, and 2006-2007:

 Program        Award No.           Audit Period         Program         No. of       Volunteers in
                                                           Year        Volunteers     Audit Scope
                                                        2004-2005          32              32
AmeriCorps    04NDHDC005        09/08/04 – 09/01/08     2005-2006          34              34
                                                        2006-2007          38              33
  Totals                                                                  104              99

  We conducted our audit in accordance with audit standards generally accepted in the United
  States of America and generally accepted government audit standards. We did not test
  internal controls and do not express an opinion on them. USCRI has not had a grant from
  the Corporation since September 30, 2008.

  We conducted our field work from May 2010 to June 2010.

  BACKGROUND

  The Corporation awards grants to assist in the creation of full-time and part-time national
  and local community service programs. AmeriCorps is one of the Corporation’s three major
  service initiatives. The Corporation’s AmeriCorps program provides grants to qualified
  organizations to engage persons age 17 and older in programs that address educational,
  public safety, human, or environmental needs through national and community service, and
  provides education awards to participants who successfully complete their service.

  USCRI is a non-profit refugee resettlement, immigrant service, and public education
  organization founded in 1911. Individuals serving in USCRI’s AmeriCorps program
  participated in service projects and activities to increase naturalization rates among select
  immigrant groups, foster civic pride, mobilize volunteers, and utilize the volunteer experience
  of baby boomers and older Americans to engage refugees and immigrants in their
  communities.




                                              9
EXIT CONFERENCE

The contents of this report were discussed with USCRI’s management and the Corporation
at an exit conference held on September 16, 2010. In addition, a draft of this report was
provided to USCRI and the Corporation for their comments on October 5, 2010. We
summarized their comments in the appropriate sections of this report, and included their
complete comments in Appendices A and B.

This report is intended solely for the use of the management of the Corporation, OIG,
USCRI, and U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties. However, the report is a matter of public record and its
distribution is not limited.




                                          10
                     APPENDIX A

U.S. COMMITTEE FOR REFUGEES AND IMMIGRANTS RESPONSE TO
                     AUDIT REPORT
      ~
     (jsc:
              U.S. COMMITTEE
           FOR REFUGEES AND IMMIGRANTS
                II/ Protectin~ Refu~ees, SeIVin~ Immi~rants, Upholdin~ Freedom since 1911

                            November 4,2010


Oiftcers                    Mr. Stuart Axenfield
Thomas H. Belote
Chair
                            Assistant Inspector General for Audit
ScottWu                     Office of Inspector General
Vice Chair                  Corporation for National & Community Service
Lily O'Boyle
Vice Chair                  1201 New York Avenue, NW
Lawrence Rosenthal          Suite NW
Treasurer
Donna Scarlatelli           Washington, DC 20525
Secretary
                            Dear Mr. Axenfield

Board of Directors          Enclosed you will fmd a response by U.S. Committee for Refugee and Immigrants
Kenneth Blackman
Joshua Bratter
                            (USCRI) to the draft report on the results of the Office of Inspector General's audit oZ
Edward Grode                our AmeriCorps grants for program years 2004-205, 2005-2006, and 2006-2007.
Margaret Harris
J. Bruce Nichols
Sam Udani                   If you have questions or wish to discuss the draft report, please contact Lee Williams,
Roy Williams                Vice President and CFO, at (703) 310-1130, ext, 3032 and lwilliams@uscridc.org.
James Hathaway
Eme71tus, Counsel on
Inte771ational Protection

                                             .--...                            -
President and CEO
Lavinia Lim6n                 aVini~
                            President and CEO
HEADQUARTERS
Washin~on, DC


USCRI FIELD OfFICES
Albany. NY
Colchester. VT
Detroit, MI
Erie. PA
Port-all-Prince, Haiti
Ralei~h, NC




                                 2231 Crystal Drive, Suite 350 • Ariington,VA 22202-3794· Tel: (703) 310-1130 • Fax: (703) 769-4241
                                                                           www.refu~ees.O[~
              USCR!' s Response to Office of Inspector General's Draft Audit Report


USCRI responses to the results of the audit conducted by the Office of Inspector General
(OIG) of the Corporation for National and Community Service (Corporation) are
contained below.

1. AmeriCorps member service hours did not meet the minimum required to receive
an educational award.

USCRI disagrees with the ~IG's recommendation to recover the questioned education
awards and accrued interest award of $187,604. The OIG audit found that timesheets for
38 of the 99 AmeriCorps members did not meet document the required amount of service
hours to receive an educational award. USCRI identified 10 of the 38 members with a
total amount of $50,735 in education awards and accrued interest award. USCRI
subsequently provided additional timesheets totaling 1,700 hours for the AmeriCorps
members listed below.

   •   #4 - 1,707.25
   •   #5 - 1,748.75
   •   #6 - 1,718
   •   #9 - 1,712
   •   #19 - 1,752.50
   •   #24 - 1,700.48
   •   #25 -1,700
   •   #26 - 1,706.65
   •   #27 - 1,701.50
   •   #94 - 1,720,

These recently located time sheets account for a total of $50,735 in education awards and
accrued interest which should be subtracted from the questioned education awards and
accrued interest award of $187,604. USCRI is currently working to identify timesheets
for the remaining 28 members and will provide the information to the Corporation.

USCRI relied on the Corporation's ,;VBRS system because it had a check and balance
system to verify AmeriCorps service hours. We do not believe that the paper timesheet
should be the determining factor in ascertaining a member's participation and eligibility
for benefits. Rather, we believe that the WBRS system, which requires input of hours by
the member and approval by the on-site manager, should be sufficient proof of
participation.
2. Member timesheets were not signed by the member and/or site supervisor.

USCRI disagrees with the OIG's recommendation to recover the questioned education
awards of $9,450. The OIG audit found that timesheets were not signed by the
AmeriCorps member and/or site supervisor for 13 of the 99 AmeriCorps members
reviewed. Although time sheets were not signed, timesheet hours were entered on the
paper timesheets and submitted for payment. Further, the same information was entered
into the WBRS system which required input of hours by the member and approval by the
on-site manager. There is clearly no attempt to circumvent any rules or procedures but
amounts to a clerical oversight and both the paper timesheets and the WBRS information
demonstrates USCRI's effort to meet its contractual obligation. USCRI would hope that
the Corporation would not seek to recover $9,450 for this minor, clerical oversight.

3. Proper member eligibility documentation was not maintained in member files.

USCRI disagrees with the OIG's recommendation to recover the questioned living
allowance and related fringe benefits of $298,498, education awards of $85,050, and
accrued interest of $425. The OIG audit found that proper citizenship documentation was
not maintained for 31 of the 99 AmeriCorps members reviewed. USCRI subsequently
provided documentation for 26 of the 31 AmeriCorps members: #35, #36, #41, #42, #43,
#51,#52,#54,#58,#69,#71,#72,#74,#78,#79,#81,#82,#84,#85,#88,#89,#93,#94,
#95, #97, and #99. The documentation for these members represents a total amount of .
$112,677 in living allowance and fringe benefits, $23,625 in education awards, and $425
in accrued interest which should be subtracted from the questioned living allowance and
related fringe benefits, education awards, and accrued interest. USCRi is currently
working to identify documentation for the remaining 5 members and will provide the
information to the Corporation.

4. Compelling personal circumstances were not properly documented in member
files.

USCRI disagrees with the OIG's recommendation to recover the questioned education
award of $2,982. The OIG audit found that one AmeriCorps member who exited early
during program year 2005-2006 did not document the compelling personal circumstances
as required by 45 Section CFR 2455.230. USCRI provided a copy of a letter dated May
23, 2006 as documentation of the compelling personal circumstances for AmeriCorps
member #57. The nature of the member' s compelling personal circumstances was
confidential. A judgment was made not to force the member to document the events she
had a right to keep confidential. USCRI would hope that the Corporation would respect
the member's right to confidentiality and not seek to recover $2,982.
             APPENDIX B

CORPORATION’S RESPONSE TO AUDIT REPORT
                              NATIONAL&:
                              COMMUNITY
                              SERVICE~


To:

From:                                        of Grants Management

Cc:           WillI      derson, Chie in cial Officer
              Rocco Gaudio, Deputy CFO, Grants and Field Financial Management
              John Gomperts, Director AmeriCorps*State and National
              Heather Johnson Alarcon, Assistant General Counsel
              Bridgette Roy, CFO, Administrative Assistant

Date:         October 20, 2010

Subj:         Response to OIG Draft of Agreed-Upon Procedures of Corporation Grants
              Awarded to the U.S. Committee for Refugees and Immigrants (USCRI)


Thank you for the opportunity to review the draft Agreed-Upon Procedures report ofthe .
Corporation's grants awarded to the U.S. Committee for Refugees and Immigrants
(USCRI). We will work with the grantee to develop corrective actions!. We will respond
to all findings and recommendations in our management decision when the audit working
papers are provided and the final audit is issued.
